<html>
<title> - GLOBAL HEALTH INNOVATION ACT OF 2015; AGOA ENHANCEMENT ACT OF 2015;. FIRST RESPONDERS PASSPORT ACT OF 2015;. AND FOREIGN AID TRANSPARENCY AND ACCOUNTABILITY ACT OF 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                  GLOBAL HEALTH INNOVATION ACT OF 2015;
                     AGOA ENHANCEMENT ACT OF 2015;
                 FIRST RESPONDERS PASSPORT ACT OF 2015;
                      AND FOREIGN AID TRANSPARENCY AND 
                         ACCOUNTABILITY ACT OF 2015

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

             H.R. 2241, H.R. 2845, H.R. 3750 and H.R. 3766

                               __________

                            NOVEMBER 5, 2015

                               __________

                           Serial No. 114-112

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE
97-463PDF                  WASHINGTON : 2015                     
                      
________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eef9e6c9eafcfafde1ece5f9a7eae6e4a7">[email&#160;protected]</a>  


                           
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2241, To direct the Administrator of the United States 
  Agency for International Development to submit to Congress a 
  report on the development and use of global health innovations 
  in the programs, projects, and activities of the Agency........     2
  Amendment to H.R. 2241 offered by the Honorable Albio Sires, a 
    Representative in Congress from the State of New Jersey......     6
H.R. 2845, To promote access to benefits under the African Growth 
  and Opportunity Act, and for other purposes....................     7
H.R. 3750, To waive the passport fees for first responders 
  proceeding abroad to aid a foreign country suffering from a 
  natural disaster...............................................    13
  Amendment in the nature of a substitute to H.R. 3750 offered by 
    the Honorable Darrell E. Issa, a Representative in Congress 
    from the State of California.................................    15
H.R. 3766, To direct the President to establish guidelines for 
  United States foreign development and economic assistance 
  programs, and for other purposes...............................    17

                                APPENDIX

Markup notice....................................................    40
Markup minutes...................................................    41
Markup summary...................................................    43
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    44

 
                 GLOBAL HEALTH INNOVATION ACT OF 2015;
                     AGOA ENHANCEMENT ACT OF 2015;.
                 FIRST RESPONDERS PASSPORT ACT OF 2015;.
                      AND FOREIGN AID TRANSPARENCY AND 
                      ACCOUNTABILITY ACT OF 2015

                              ----------                              


                       THURSDAY, NOVEMBER 5, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11:18 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. So this committee will come to order. And 
pursuant to notice, we meet today to mark up four bipartisan 
measures. Without objection, all members may have 5 days to 
submit any statements for the record or any extraneous 
materials that they want to include on today's business.
    All members were notified yesterday we intend to consider 
today's measures en bloc. And so, without objection, the 
following items previously provided to members will be 
considered en bloc and are considered as read.
    And those are H.R. 2241, the Global Health Innovation Act 
of 2015, with the Sires amendment 210 to H.R. 2241. Second, 
H.R. 2845, the African Growth and Opportunity Act Enhancement 
Act of 2015. Third, H.R. 3750, the First Responders Passport 
Act of 2015, with the Issa amendment 50 in the nature of a 
substitute to this House resolution. And H.R. 3766, the Foreign 
Aid Transparency and Accountability Act of 2015.
    [The information referred to follows:]<greek-l>H.R. 
2241 deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. And after recognizing myself and the 
ranking member, I will be pleased to recognize any member 
seeking recognition to speak on these measures.
    So we begin with the AGOA Enhancement Act markup. And I 
will just tell you, just as a reminder, we recently passed AGOA 
and gave it a 10-year extension. And I thank the members for 
their help on that and thank Congresswoman Karen Bass in 
particular. We have been involved in this committee since 1998 
when we wrote the original measure here, part of it, as 
cosponsors.
    AGOA, obviously, allows qualified sub-Saharan African 
countries to export thousands and thousands of goods, like 
apparel and energy and other products, to the United States on 
a duty-free basis, but it is done in conjunction with changes 
made that help civil society in these African countries with 
respect to the rule of law and developing independent courts.
    So it has helped draw hundreds of millions of dollars in 
foreign investment into the subcontinent, and it has helped put 
thousands of Africans into much needed work. It is good for 
exporters too. As you know, about two-thirds of the countries 
in Africa qualify for AGOA. But to qualify you have to take 
certain steps toward rule of law.
    In May of this year, Congress successfully reauthorized 
AGOA, as I shared with you, for 10 years. This bill, the AGOA 
Enhancement Act, contains provisions that will improve trade 
capacity and relations between African companies and companies 
here in the United States. Namely, the Millennium Challenge 
Corporation, or MCC, will be allowed to enter into a second 
compact in an eligible country for purposes of promoting 
economic integration and trade, helping to unlock a region's 
full potential for growth. And the bill also modernizes AGOA's 
implementation by getting more information about its trade 
preferences online, so that companies on both sides of the 
Atlantic can better understand and utilize AGOA's benefits.
    So I, again, want to thank our ranking member, Mr. Engel, 
and the Africa Subcommittee Chairman Smith for his work on 
this, and Ranking Member Bass, for their support.
    Second, we have H.R. 3766, the Foreign Aid Transparency and 
Accountability Act, which will enhance--well, the bill will 
ensure that many Federal departments and agencies that 
implement these programs, these foreign aid programs, 
coordinate and not duplicate efforts and apply the lessons 
learned from evaluations so we can do more of what works in 
development and less of what doesn't work. And the bill is the 
result of years of consultation and collaboration between 
Congress and the administration and experts and advocates.
    And I want to thank the bill's sponsor, Judge Poe, and his 
coauthor, Mr. Connolly, for their steadfast work and leadership 
in bringing this before us today.
    Third, we have H.R. 3750, the First Responders Passport 
Act. This will allow the Secretary of State to waive passport 
fees for individuals working with the U.S. Government to 
respond to natural disasters abroad.
    Many of us represent teams that deploy around the globe 
just hours after a disaster hits. This makes us very proud. But 
every year, brave Americans volunteer to be on call for this 
duty, but as a result must bear the expense of ensuring their 
passports are up to date. And this act will provide a small but 
important benefit for those who represent us so well, such as 
the team that deployed to Nepal.
    Lastly, H.R. 2241, the Global Health Innovation Act, 
directs the Administrator of U.S. Agency for International 
Development to provide Congress with five annual reports on the 
Agency's efforts to develop and apply new, innovative health 
technologies within U.S. Global Health Programs.
    The reason that is of interest to us is because through 
USAID, through the Global Development Lab and the Center for 
Accelerating Innovation and Impact, they have partnered with a 
lot of private sector groups to develop and bring to scale low-
cost, high-impact health technologies. We are seeing that 
impact particularly in maternal health.
    So these reports will improve our oversight of this 
important effort. And I thank Mr. Sires for bringing this 
forward in a timely measure.
    And I want to turn to Ranking Member Karen Bass of the 
Africa Subcommittee for her opening remarks.
    Ms. Bass. Thank you, Mr. Chair.
    In true fashion, the AGOA Enhancement Act is bipartisan. 
And I want to think Chairman Royce, Ranking Member Engel, and 
the Africa Subcommittee chair, Chris Smith, for their 
longstanding and consistent support of AGOA and their foresight 
regarding the need to ensure that the reauthorized AGOA is 
implemented in a transparent and effective manner and supported 
by complementary legislation, such as the AGOA Enhancement Act.
    I also want to thank the HFAC committee staffers who worked 
long and hard and creatively on this bill to ensure its 
relevancy and complementary support of AGOA.
    The AGOA Enhancement Act does exactly what its title 
suggests, it enhances AGOA by strengthening transparency and 
commonsense priorities aimed at enabling eligible AGOA 
countries to utilize AGOA benefits more effectively by 
obtaining greater access to information about AGOA, developing 
trade capacity building, and expanding regional economic 
coordination.
    Transparency is addressed by requiring the administration 
to, for example, create an AGOA Web site for the collection and 
dissemination of information regarding AGOA. Trade capacity 
building is addressed by requiring that the administration 
encourage and facilitate transboundary cooperation among 
eligible African countries in order to facilitate trade and 
encourage the provision of technical assistance to eligible 
African countries.
    H.R. 2845 also recognizes the unique role played by the 
U.S. Millennium Challenge Corporation, or MCC--and I want to 
take a moment to acknowledge MCC's leadership and their stellar 
staff--in economic development and its success working with 
nations to improve economic growth and address regional 
integration. MCC is enabled to work with partner countries on a 
regional basis. The MCC requested this authority as a way to 
better leverage and facilitate economic growth through its 
investments and supports this provision being included.
    Over the next 10 years, Africa will become an even more 
important part of the world economy with a large youthful 
population that is increasingly university educated, tech 
savvy, and entrepreneurial. Without question, it is in the 
interest of the United States and the countries of Africa, the 
world's new economic frontier, that we work together toward a 
stronger and mutually beneficial economic relationship that 
will stand the test of time.
    Thank you, and I yield back my time.
    Chairman Royce. The ranking member, Mr. Eliot Engel.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
up these bipartisan measures. It is good, as always, to see our 
committee working together to advance legislation and getting 
it to the House floor.
    Let me begin with Chairman Royce's measure, the African 
Growth and Opportunity Act Enhancement Act of 2015. Earlier 
this year, Congress authorized the African Growth and 
Opportunity Act through 2025. That bill seeks to promote trade 
between Africa and the United States, but it has become clear 
that a number of eligible countries lack sufficient capacity to 
reap the program's benefits.
    H.R. 2845, which I am proud to cosponsor along with Rep. 
Bass and Rep. Smith, would encourage the United States to work 
with sub-Saharan African governments to improve the rule of 
law, strengthen and expand the private sector, reduce 
bureaucratic barriers to trade, and promote the role of women 
on the continent.
    In short, this bill seeks to improve investment, trade, and 
job growth in the region. This, in turn, would strengthen the 
global economy and encourage development in sub-Saharan Africa, 
two priorities for this committee.
    Let me next thank my friend, Albio Sires, for introducing 
H.R. 2241, the Global Health Innovation Act of 2015. The Ebola 
epidemic and other public health crises remind us there is a 
vital need for the United States to maintain our research and 
development efforts and response capabilities in the health 
field.
    Over the years, USAID has made some major advances in 
health research and development. We have seen that through 
innovative programs such as the Malaria Vaccine Development 
Program. And successive administrations have rightly supported 
a significant expansion of those efforts.
    H.R. 2241 directs USAID to report annually to Congress on 
its new programs, projects, and activities related to global 
health. It is important that the Agency continues to focus on 
innovation, and it is important for the Congress to make sure 
that the resources it receives are spent in the most effective 
way possible.
    Next, I would like to thank Rep. Issa for introducing H.R. 
3750, and I am proud to be a cosponsor of this measure. This 
bill would authorize the Secretary of State to waive passport 
fees for the brave Americans who help other countries in times 
of natural disaster.
    USAID search-and-rescue teams based in Fairfax County, 
Virginia, Miami-Dade County, Florida, and Los Angeles County, 
California, have played an essential role in the aftermath of 
many overseas natural disasters, including earthquakes that 
have struck Nepal, Haiti, Japan, and New Zealand. These teams 
provide specialized capabilities and demonstrate our commitment 
to international partners during times of need.
    We need to be ready to respond, and waiving passport fees 
is the least we can do for Americans who risk life and limb to 
help other countries during times of despair. The State 
Department and USAID support this measure, and I urge my 
colleagues to do so as well.
    And finally, let me thank Congressman Poe for introducing 
the Foreign Aid Transparency and Accountability Act, along with 
Congressman Connolly for his hard work on this measure. The 
State Department, under Secretary Hillary Clinton, and USAID, 
under the leadership of Raj Shah, took major steps to improve 
monitoring, evaluation, and transparency in our foreign 
assistance programs.
    These improvements include the first-ever Presidential 
policy directive on development in the Foreign Assistance 
Dashboard, an initiative that collects information from across 
the Federal Government, increasing transparency in foreign 
assistance programs.
    This legislation seeks to double down on these 
groundbreaking efforts to help the government and the American 
people better understand how their development investments 
improve lives around the world.
    So again, Mr. Chairman, thank you for your work, as usual, 
to move forward with these bills and on all these subjects. 
And, as always, thank you for working with us in a bipartisan 
manner. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    We go now to Judge Poe.
    Mr. Poe. I want to thank the chairman and the ranking 
member for moving this legislation forward. And I also want to 
thank my friend from Virginia, Mr. Connolly, for his work on 
the foreign aid bill that we are talking about today. H.R. 
3766.
    Foreign assistance has been around 50 years-plus. And what 
this legislation does is make that assistance transparent, let 
the American public and everyone else know what we are doing 
all over the world, and make it easy to understand. Some of the 
postings by government agencies regarding what they are doing 
are so complicated you can't figure out what that means.
    So the transparency aspect is the first aspect of this 
legislation, transparent about foreign assistance, and make it 
easy for everyone to understand what we are doing, the good 
that we are doing throughout the world.
    The second half of this legislation is to evaluate those 
programs. One would think that we have over the years evaluated 
foreign assistance, but we haven't really evaluated it to see 
whether it is working or not. So an evaluation is required of 
departments that give American money as assistance, evaluate 
those programs to see, first of all, if they are reaching the 
goal of the program and the assistance. And if it is not 
reaching that goal, then we need to evaluate whether we should 
continue that type of assistance.
    We continue to give money to certain programs and we really 
don't know whether it is working to solve the problem of hunger 
or water or whatever it is somewhere in the world. So the 
evaluation must take place by all these departments, evaluate 
the things that are working, things that continue to work and 
are doing good assistance. We may continue those. And if it is 
not working, then we need to stop that program.
    So it is an audit, I would call it an audit of foreign 
assistance that we are doing. If it works, continue to do it. 
If not, then reevaluate it, maybe we should not. One percent of 
the budget goes to foreign assistance. Therefore, with the 
limited money, we certainly should find out what we are doing, 
transparency, and we should also find out and evaluate all of 
the programs to see whether they are a success or not.
    And thank you, Mr. Chairman. I will yield back.
    Chairman Royce. Thank you, Mr. Poe.
    Mr. Connolly, I want to recognize Mr. Connolly. He looks 
apprehensive here.
    Mr. Connolly. No. No. I wasn't quite sure what you were 
looking at.
    I thank the chair and the ranking member for putting this 
on the agenda today. And I want to thank Judge Poe for his 
leadership. We have been doing this together for a couple of 
years now and we are so glad to have it.
    This bill directs the President to establish monitoring and 
evaluation guidelines for the 22 Federal agencies charged with 
implementing development and economic assistance programs 
abroad, chief among them, of course, USAID. The guidelines will 
require M&E plans as part of the project development process 
and agencies will be encouraged to incorporate the findings of 
project evaluations and impact studies.
    Aid programs that are held accountable for their 
performance and results can be made more effective, as Judge 
Poe just indicated, and their impact on communities and 
countries abroad more easily measured. And if we do that, as 
Judge Poe just said, we can dispel the notion in public polling 
that, apparently, foreign assistance is 26 percent of the 
Federal budget, when, of course, it is less than 1 percent.
    The U.S. foreign assistance operation does not lack 
passion. The men and women who put themselves in harm's way in 
often very remote parts of the globe or take their families to 
those parts of the world in the interest of helping vulnerable 
populations certainly aren't seeking glory, fame, or fortune. 
They do it because they envision a path to prosperity for 
others even in the most poverty-stricken areas of the world.
    While our passion is well defined, our mission and metrics 
are not. Regarding the mission, I was a staffer on the Senate 
Foreign Relations Committee that wrote the last foreign aid 
authorization bill passed by Congress back in 1986. In that 
time, we had, like, five principal goals. Today, we have 260.
    And the mission is not clear. The mission statement just a 
year ago for USAID read: ``USAID accelerates human progress in 
developing countries by reducing poverty, advancing democracy, 
building market economies, promoting security, responding to 
crises, and improving quality of life. Working with governance 
institutions and civil society, we assist individuals to build 
their own futures by mobilizing the full range of American 
public and private resources through our expert presence 
overseas.'' That is not a clear mission.
    So I am hopeful, Mr. Chairman, this bill will help focus--
refocus--U.S. foreign assistance programs in a more efficacious 
way. And I am proud to call myself a cosponsor of this 
legislation and am, again, grateful for Judge Poe for his 
leadership. I yield back.
    Chairman Royce. Thank you, Mr. Connolly.
    We are going to go to Mr. Issa and then to Mr. Sires.
    Mr. Issa. Thank you, Mr. Chairman. And in the case of H.R. 
3750, I will be very brief.
    The State Department has needed this authority for a long 
time, although on a routine basis there are as few as 450 
individuals that this would cover in the way of first 
responders, and at any given time, with a typical 10-year 
passport, only a few would need it.
    However, if there is a catastrophic event somewhere within 
the world and we call on a large number of first responders, 
many of whom may not have current passports, the ability to 
quickly waive it is a capability the State Department would 
want and need if the United States Government is directing 
these first responders to go to the distressed area.
    And as CBO has scored it as narrowly targeted, fixed, and 
it will be a negligible amount and can be paid out of existing 
funds, it has no CBO score. It is something the State 
Department very much believes is in their best interest to have 
in the case of a major event and will have a de minimus cost 
compared to the cost of transporting those individuals and the 
benefit to America of having first responders go to the scene 
of a catastrophe.
    And so I urge the support. And I yield back.
    Chairman Royce. Thank you, Mr. Issa.
    We go now to Mr. Sires.
    Mr. Sires. I want to start by thanking Chairman Royce, 
Ranking Member Engel for their work on global health and their 
efforts to mark up this bill. I would also like to thank the 
many members of this committee who have cosponsored this bill 
and all the staff that worked on this bill.
    H.R. 2241, the Global Health Innovation Act, is a bill that 
will provide the oversight needed to gain a clearer picture of 
USAID's global health research and development. Over the years, 
research and development projects have greatly expanded at 
USAID in searching for advancement toward an HIV- and AIDS-free 
generation, in preventable maternal and childhood death, and 
preventable infectious disease.
    This legislation is an effort to keep up with the scope of 
USAID's expanded effort and ensure their research and 
development activities reflect their goals and priorities. This 
report asks them to provide clarity on their goals and metrics 
to better understand their work. H.R. 2241 directs the USAID's 
Administrator to report annually to Congress on the development 
and use of global health innovations in USAID's programs, 
projects, and activities.
    The report must also include how the Agency measures 
progress, investment, and development toward their health-
related goals. Lastly, the amendment I introduced will sunset 
this requirement after five reports.
    I thank the committee for their time and urge my colleagues 
to support this legislation. I yield back.
    Chairman Royce. Thank you, Mr. Sires.
    And I will remind members, you can put statements into the 
record. We are in the last 7 minutes of the vote or so. And if 
there are any necessary statements, I think we have covered 
those who are authors or coauthors of amendments.
    Any other members seek time? If not, hearing no further 
requests for recognition, the question occurs on the items 
considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
measures considered en bloc are agreed to.
    So, without objection, the measures considered en bloc are 
ordered favorably reported as amended and staff is directed to 
make any technical and conforming changes. And also, without 
objection, the chair is authorized to seek House consideration 
of these measures under suspension of the rules.
    That concludes our business today. And I want to thank 
Ranking Member Engel and all of our committee members for their 
contributions and assistance with this markup today. We stand 
adjourned.
    [Whereupon, at 11:41 a.m., the committee was adjourned.]

                                
                                    

                            A P P E N D I X

                              ---------- 
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                      


                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
